2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

a E-Mai 2
Legal Briefs comtaci@eockllegabreB.com
Est. 1923 °

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850
No. 20-362

COCHLEAR CORPORATION, et al.,
Petitioners,
% .
ALFRED E. MANN FOUNDATION
FOR SCIENTIFIC RESEARCH, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF AMICI CURIAE OF
INTELLECTUAL PROPERTY PROFESSORS IN SUPPORT OF PETITIONERS in the above
entitled case complies with the typeface requirement of Supreme Court Rule 33.1(b), being
prepared in New Century Schoolbook 12 point for the text and 10 point for the footnotes, and this
brief contains 1569 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d),

as needed.

Subscribed and sworn to before me this 27th day of October, 2020.
1am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Webrasia deca wv Chk
RENEE J. GOSS 9 . *
Notary Public

My Comm. Exp. September 5, 2023
Affiant

 

40263
